<html>
<title> - PROPOSALS FOR A WATER RESOURCES DEVELOPMENT ACT OF 2008</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                         PROPOSALS FOR A WATER 
                         RESOURCES DEVELOPMENT 
                              ACT OF 2008 

=======================================================================

                               (110-123)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 30, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

42-152 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 










             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ARCURI, New York          CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             JOHN BOOZMAN, Arkansas
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
DORIS O. MATSUI, California          WAYNE T. GILCHREST, Maryland
JERRY F. COSTELLO, Illinois          VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
BRIAN HIGGINS, New York              GARY G. MILLER, California
RUSS CARNAHAN, Missouri              ROBIN HAYES, North Carolina
JOHN T. SALAZAR, Colorado            HENRY E. BROWN, Jr., South 
MAZIE K. HIRONO, Hawaii              Carolina
HEATH SHULER, North Carolina         TODD RUSSELL PLATTS, Pennsylvania
HARRY E. MITCHELL, Arizaon           BILL SHUSTER, Pennsylvania
JOHN J. HALL, New York               CONNIE MACK, Florida
STEVE KAGEN, Wisconsin               JOHN R. `RANDY' KUHL, Jr., New 
JERRY MCNERNEY, California, Vice     York
Chair                                CHARLES W. BOUSTANY, Jr., 
ELEANOR HOLMES NORTON, District of   Louisiana
Columbia                             JEAN SCHMIDT, Ohio
BOB FILNER, California               CANDICE S. MILLER, Michigan
ELLEN O. TAUSCHER, California        THELMA D. DRAKE, Virginia
MICHAEL E. CAPUANO, Massachusetts    ROBERT E. LATTA, Ohio
GRACE F. NAPOLITANO, California      JOHN L. MICA, Florida
MICHAEL A. ARCURI, New York            (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)












                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Berginnis, Chad, CFM, Chief, Ohio EMA-Mitigation Branch, State 
  Hazard Mitigation Officer......................................    24
Brown, Richard N., President, National Federation of Federal 
  Employees IAM..................................................    24
Buyer, Hon. Steve, a Representative in Congress from the State of 
  Indiana........................................................     7
Little, Steve, President and CEO, Crounse Corporation, General 
  Counsel, Waterways Council, Inc................................    24
Weakley, James H.I., President, Lake Carriers' Association.......    24
Williams, Nat, Acting Director, U.S. Government Relations and 
  State Director, Maryland Chapter, the Nature Conservancy.......    24
Williams, Warren D. ``Dusty,'' General Manager and Chief 
  Engineer, Riverside County Flood Control & Water Conservation 
  District, on behalf of the National Association of Flood and 
  Stormwater Management Agencies.................................    24
Woodley, Jr., Secretary John Paul, Assistant Secretary of the 
  Army for Civil Works, Washington, DC...........................    10

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Bishop, Hon. Timothy H., of New York.............................    39
Buyer, Hon. Steve, of Indiana....................................    40
Carnahan, Hon. Russ, of Missouri.................................    63
Costello, Hon. Jerry F., of Illinois.............................    64
Matsui, Hon. Doris O., of California.............................    66
Mitchell, Hon. Harry E., of Arizona..............................    68

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Berginnis, Chad..................................................    70
Brown, Richard N.................................................    85
Little, Stephen D................................................    94
Weakley, James H.I...............................................   166
Williams, Nat....................................................   172
Williams, Warren ``Dusty''.......................................   179
Woodley, Jr., Hon. John Paul.....................................   186

                        ADDITIONS TO THE RECORD

American Association of Port Authorities, Kurt J. Nagle, 
  President and CEO, written statement...........................   193
Water Resources Coalition, written statement.....................   197

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        PROPOSALS FOR A WATER RESOURCES DEVELOPMENT ACT OF 2008

                              ----------                              


                       Wednesday, April 30, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           SubCommittee on Water Resources and Environment,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:03 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Eddie Bernice 
Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. The Committee will come to order.
    Good afternoon. This hearing of the SubCommittee on Water 
Resources and Environment will come to order as we begin to 
work on the Water Resources Development Act of 2008. The 
enactment of a new water resources bill is a high priority of 
mine and to, I am certain, all of our Committee Members.
    Last year, this Committee, on a bipartisan basis, was 
successful in clearing out close to 7 years' worth of project 
studies, new authorizations and project modifications. This was 
an historic achievement and one that had been ellusive since 
the year 2000. In fact, I believe that the Presidential veto 
that occurred last year was the first veto of a Water Resources 
Development Act and only the 107th veto override in the history 
of this Nation.
    I thank my colleagues on both sides of the aisle--I am 
short of breath. I have been running to get here--for their 
hard work and dedication to investing in the water-related 
infrastructure of the Nation.
    I want to take this opportunity again to recognize my 
former Subcommittee colleague, Mr. Baker, for efforts in 
resolving some of the last-minute sticking points on the Water 
Resources and Development Act of 2007.
    I also look forward to working with our newest Ranking 
Member, Mr. Boozman, whom I consider a very good friend, 
cordial and bipartisan. I thank him for his work in putting 
together this water resources bill.
    Water-related infrastructure should not be a partisan 
issue. These flood control, navigation, environmental 
restoration, and other water-related projects are far too 
important to our constituents, to our local economies and to 
American people's lives and livelihoods.
    This afternoon, we will receive testimony from 
distinguished Members of Congress, from the Administration and 
from interested stakeholders regarding projects and policies 
for consideration in the upcoming Water Resources Development 
Act. Our intent today is to receive testimony and to gather 
information on individual project requests over the next 
several weeks so that we can be in a position to move a new 
bill later in the summer. This is no small task, but, given the 
growing needs and opportunities to improve our water 
transportation infrastructure and to restore the environment, 
we must rise to the challenge and move forward without delay.
    As noted by Secretary Woodley in his testimony today, 
public policy is much improved when the congressional 
authorization and oversight processes are robust and effective. 
I agree with his statement, and I believe that it is consistent 
with this Committee's efforts to have a water resources bill 
signed into law this year. It is my hope that, after seeing the 
strong bipartisan and bicameral support for investment in our 
Nation's water-related infrastructure, should the President be 
presented with a new water resources bill later this year, he 
will sign it.
    I yield to my Ranking Member, the gentleman from Arkansas, 
Mr. Boozman, for any comments he would like to make.
    Mr. Boozman. Thank you very much, Madam Chair. I thank you 
and appreciate your leadership as we move forward on this very 
important water resources bill.
    Today, the Subcommittee is meeting to hear testimony from 
Members of Congress, from the Administration and from industry 
stakeholders regarding their requests for the Water Resources 
Development Act of 2008.
    During the first session of the 110th Congress, the 
Subcommittee developed legislation authorizing the Army Corps 
of Engineers' projects that was enacted in November, 2007. WRDA 
2007 was essentially a catch-up legislation, since most Members 
were only allowed to request projects that were included in 
previous water efforts.
    In 2008, Members of Congress will have an opportunity to 
update their project requests and to make new requests to the 
Committee. This legislation reaffirms our commitment to 
developing the Nation's water resources by responding to the 
request of Members of Congress related to projects in their 
districts and policy issues affecting the entire Corps 
programs.
    The Water Resources Development Act provides authority for 
the Corps of Engineers to carry out its missions of navigation, 
improvement at harbors and at waterways, flood damage reduction 
in our communities, and environmental restoration at our lakes, 
rivers and wetlands. These projects reduce transportation 
costs, save lives, homes and businesses from the ravages of 
floodwaters. They improve the quality of life.
    These projects also provide jobs and stimulate the economy. 
Our integrated system of highways, railways, airways, and 
waterways has sufficiently moved freight in this Nation, but 
increased trade and increased production is already leading to 
congestion that slows our economy as it slows the movement of 
goods. I am not prepared to punch the panic button yet, but I 
do believe that we as a Congress need to address this issue if 
we want to remain competitive in world markets.
    For instance, American farmers, like the rest of the 
economy, depend on modern and efficient waterways and ports to 
get their products to market. Recently, improved transportation 
systems in South America have allowed South American farmers to 
keep their costs low enough to underbid U.S. grain farmers for 
customers located in this country. Currently, 16 to 18 percent 
of the Nation's freight tonnage moves by water. With outdated 
locks, shower channels and other obstacles, congestion in our 
waterways is causing transportation costs to increase; and 
goods transported by barge may switch to other, more costly 
modes of transportation.
    If the cargo transported on inland waterways each year had 
to be moved by another mode, this would equal 6.3 million 
additional railcars or 25.2 million additional trucks. With 
today's overcrowded highways, like the I-95 corridor, we should 
be looking to water transportation to shoulder more of the 
load. When done responsibly, it is the safest, most fuel-
efficient and most environmentally friendly way of moving 
goods.
    We also must update and maintain our ports, which handle 95 
percent of the Nation's imports and exports. For example, ocean 
carriers are investing heavily in megaships to meet growing 
demands and to drive down operating costs. These vessels are 
capable of carrying 4,500 to 6,500 20-foot containers, compared 
with today's containerships that carry between 2,000 and 4,000. 
Few ports are equipped to handle both the larger vessels and 
the increase in freight tonnage, leading to more congestion. 
Unless the issue of congestion is addressed, the reliability 
and responsiveness of the entire intermodal system will slow 
economic growth and will threaten national security.
    The Army Corps of Engineers is a very different and unique 
agency. Since the Continental Congress ordered the construction 
of fortifications at Bunker Hill in 1775, the Corps of 
Engineers has been the only multidimensional and integrated 
Federal agency that supports economic and national security 
through its civilian and military functions.
    The current system works very well. With its integrated 
water resource missions, including navigation and flood 
control, the Corps helps improve the Nation's economy. Having a 
civil works mission, the U.S. Army also provides a ready-made 
team of experienced engineers, scientists and other 
professionals that we can call upon in times of national 
emergencies and threats. For example, the Corps has undertaken 
reconstruction efforts in Iraq, the World Trade Center and 
elsewhere.
    The most effective and efficient way to maintain this 
capability in a state of readiness is by keeping the Corps 
within the Department of Defense so the functions and 
capabilities can contribute to both the military and civil 
works missions.
    Today's hearing allows the Administration and the industry 
stakeholders to explain the water resources needs of the 
Nation. I look forward to hearing the testimony of the 
witnesses today.
    I yield back, Madam Chair.
    Ms. Johnson. Thank you very much, Mr. Boozman.
    The Chair now recognizes Mr. Kagen.
    Mr. Kagen. Thank you, Madam Chairwoman.
    Also, thank you, Ranking Member Boozman, for your active 
interest in this area and for holding this important hearing on 
the Water Resources Development Act.
    I would also like to thank all of the members of the panels 
for appearing here today, in particular, before the Water 
Resources and Environment SubCommittee.
    Additionally, I would like to personally thank Mr. James 
Weakley, President of the Lake Carriers' Association, for 
recently testifying before the Subcommittee hearing held in 
Green Bay, Wisconsin, concerning the decreasing water levels in 
the Great Lakes. That hearing was held in Green Bay. It was 
also attended by Congressman, the Honorable Tom Petri.
    As we are all aware, the Water Resources Development Act 
provides important support for commerce along the Nation's 
rivers and coasts. It also funds critical conservation habitat, 
restoration and environmental proposals. This legislation 
affords the U.S. Army Corps of Engineers the necessary 
resources to undertake hundreds of flood control, navigation 
and ecological mitigation measures, including the accelerated 
dredging of the Great Lakes over the past several years.
    In particular, I look forward to working collaboratively 
with Chairwoman Johnson and with her staff, with Chairman 
Oberstar and with the Army Corps to address the adverse 
economic impact caused by declined water levels in the Federal 
channel which approaches Washington Island in the tip of Door 
County because that island depends upon that channel for its 
survival.
    Lake Michigan's water levels are declining, and the current 
channel depth surrounding the Washington Island area in Door 
County have become nearly impassable. If Lake Michigan levels 
remain at or near their current levels, the island's very 
existence will be at risk. At present, the Washington Island 
Ferry operates a 4.5-mile route between the Door County 
peninsula and the island. The people living on this island are 
now engaged in dredging outside the Federal channel in order to 
import all of their daily necessities, including their food and 
medical supplies.
    The Washington Island channel is a Federal waterway first 
dredged in 1939. There has been a great deal of silting since 
then, yet the area has not been dredged since 1939. It is the 
hope of everyone who enjoys living and visiting Washington 
Island that this channel be considered for harbor depth 
improvements.
    I will yield back my time.
    Thank you very much for being here, everyone.
    Ms. Johnson. Thank you very much.
    Mr. Latta, you are recognized. Do you have a statement? No?
    Mr. Salazar.
    Mr. Salazar. Thank you, Madam Chair.
    Today, I look forward to working with the Water Resources 
Development Act. I know I share the same frustration that many 
of us do from the last bill that took 7 years to pass, but I am 
hopeful that we will be able to do a better job on it this 
time. The projects in this bill are critical to our Nation's 
infrastructure.
    Among the projects that I submitted last week was a request 
that the Corps be allowed to work on environmental 
infrastructure projects in Colorado. The Corps has the 
authority in a number of other States, and I believe that 
Colorado should be among those that are allowed to receive 
Corps assistance for non-Federal water-related infrastructure 
projects.
    Throughout my district in the State, there are communities 
whose water supplies are in need of immediate attention. One in 
particular is the City of Alamosa. Much of their infrastructure 
was built in 1920. These cities are dealing with pollutants, 
aging infrastructure, a lack of facilities and resources for 
stormwater vents and environmental restoration demands.
    I think many of you recall in the national media a couple 
of weeks ago the town of Alamosa in Colorado, the town next to 
where I live, where the salmonella outbreak actually 
contaminated the municipal water distribution system. 
Thankfully, there was only one person who died, but there was 
near 400 cases of people getting sick just from drinking their 
tap water.
    Alamosa needs a new water storage facility, but, like many 
other small, rural communities, funding is a problem. While 
these communities have some ability to finance the efforts to 
address these needs, the benefit of the Federal financial and 
technical support is critical to most of them.
    So, Madam Chair, I would ask you and the Members of this 
Committee to support not only this request but other requests, 
like Mr. Buyer's request.
    I wanted to also welcome Mr. Buyer, the Ranking Member of 
the Veterans' Affairs Committee and a good friend, to this 
Committee.
    Thank you, Madam Chair. I yield back.
    Ms. Johnson. Thank you very much.
    Ms. Matsui.
    Ms. Matsui. Thank you, Madam Chair.
    I am very pleased to be here today, and I thank you for 
calling a hearing on such an important issue.
    Since coming to Congress, I have made protecting my 
citizens from flooding one of my top priorities. I am 
encouraged that the Committee is further examining this issue. 
I am also thankful that this Committee has such tremendous 
leadership. Both Chairman Oberstar and Chairwoman Johnson have 
been leaders and advocates for flood protection. Thank you 
both.
    Congratulations to Mr. Boozman on his new leadership 
position.
    My district sits at the confluence of two great rivers. 
Sacramento is considered to have the highest flood risk of any 
major metropolitan city in the United States, with more than 
440,000 people, 110,000 structures. The capital of the State of 
California and up to $58 billion are at risk. Yet my district 
has truly been a positive poster child in its efforts to 
bolster our flood control system since our near-catastrophic 
flood in 1986.
    We have investigated our levies, have planned our projects, 
have assessed ourselves millions of dollars, have pushed our 
State to be a full partner, and have begun to build projects 
that would get us to a greater than 200-year level of 
protection. In fact, our latest assessment commits over $400 
million of local dollars to this effort. We are fully committed 
to flood protection. I am very proud of the flood control work 
we have accomplished. We know we still have a long way to go.
    I am pleased that the Committee is working to bring water 
bills up, as they are designed, every 2 years. I am looking 
forward to continuing the good work we accomplished in last 
year's bill to continue to increase public safety, to provide a 
comprehensive approach to flood protection and to create 
efficient policy. I also want to ensure that we craft policy 
which recognizes the good work that States such as California 
are doing.
    When you have a State like mine that is pouring enormous 
financial resources into flood protection, I want to make sure 
that the Federal Government meets their commitment. We cannot 
take months and months to review permits while literally tens 
of thousands of taxpayers are sitting at risk. The Federal 
Government must make sure that it does everything to meet the 
infrastructure needs of States and that it does nothing to 
impede progress.
    Madam Chair, I thank you for your constant leadership and 
for your commitment to this issue.
    I yield back the balance of my time.
    Ms. Johnson. Thank you very much.
    Mr. Carnahan.
    Mr. Carnahan. Thank you, Madam Chairman and Ranking Member.
    I would like unanimous consent to put my entire statement 
in the record, but I do want to make a few remarks.
    I want to commend Chairman Oberstar and Chairwoman Johnson 
for their dedication to passing another reauthorization this 
year. This is really the first step, what we did last year in 
addressing the backlog, but there is much more that we need to 
do.
    I am deeply concerned about the Inland Waterways Trust Fund 
that has become depleted over the last several years. In my own 
State of Missouri, we have two major rivers, the Mississippi 
and the Missouri. These two waterways are a major contributor 
to the economy of our State and to the surrounding region. The 
depletion of the funds in the Inland Waterways Trust Fund will 
prevent the Army Corps of Engineers from making the necessary 
repairs to the lock and dams. They are also vital for effective 
transportation of commercial goods, for flood protection and 
for environmental stewardship.
    So, again, I look forward to working with the Committee, 
and I appreciate the witnesses for being here today.
    Ms. Johnson. Thank you.
    Mr. Boustany.
    Mr. Boustany. Thank you, Madam Chair. I want to thank you 
and the Ranking Member, Mr. Boozman, for holding this hearing. 
This is a very important hearing.
    There are so many issues as we go forward. We saw that with 
the last water bill, and there are still many unresolved issues 
that we are dealing with.
    For instance, just recently, I confronted the situation 
where we needed emergency dredging on the Mississippi River 
because of all of the sediment coming down; and funds--valuable 
funds--were reprogrammed from critical projects, maintenance 
projects down in my district, such as the Calcasieu ship 
channel, which is a vital shipping lane for that that serves 
our refineries and liquefied natural gas.
    I fail to understand that when we have a Harbor Maintenance 
Trust Fund that has over $4 billion in it that we have to go 
after supplemental funds or reprogram funds from other vital 
projects. So I think this is an issue as we go forward and work 
on this next water bill that we need to address, among many 
others.
    So, with that, I look forward to hearing the testimony of 
and the questioning of the witnesses. Thank you.
    I yield back.
    Ms. Johnson. Thank you very much.
    Mr. Hall.
    Mr. Hall. Thank you, Madam Chair.
    First of all, I would like to thank you and Ranking Member 
Boozman for coming to New York's 19th District and holding a 
field hearing of the Subcommittee to address the issues of TCE 
contamination in our groundwater, among other things.
    My district is split by the Hudson River, which is 
navigable all the way up and tidal all the way up to Troy, 
north of the City of Albany, and is bounded on the west by the 
Delaware and on the east by the Ten Mile River, which runs over 
into the Housatonic and eventually into Long Island Sound.
    We have many concerns, not least among them flooding. We 
have had three 50-year floods in the last 5 years. The Corps of 
Engineers is currently doing feasibility studies in both the 
west of Hudson part of my district of the 19th District and on 
the east of the Hudson side of the district. It is important 
that we work to keep water funded and tuned up to the needs of 
our time when water is becoming, as predicted by some far-
seeing people, more and more important and a crucial resource 
for all of us for many, many reasons.
    With that, I yield back, Madam Chair.
    Ms. Johnson. Thank you very much, Mr. Hall.
    Ms. Johnson. We are pleased to have a very distinguished 
Member of the House here. He will be our first panelist. We 
welcome now the Honorable Steve Buyer, representing Indiana's 
4th Congressional District.

STATEMENT OF THE HON. STEVE BUYER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mr. Buyer. Thank you, Madam Chairwoman and Ranking Member, 
Dr. Boozman. Congratulations to you on your new position.
    Members of the Committee, I thank you for this opportunity 
to discuss an important project under way in Indiana. I commend 
you for holding this hearing and for reauthorizing the Water 
Resources Development Act. I look forward to working with you 
in this process, and I enjoin with you with the great hope that 
this bill that you are working on does not take 5 years like 
the last bill. I also want to share a little insight with you.
    In the 16 years I have been here in Congress, I have worked 
on the Armed Services, Judiciary, Energy and Commerce, and 
Veterans' Affairs. These are Committees that work in a holistic 
approach toward policy issues for the country. This is truly 
the first time I have had the opportunity to listen to my 
colleagues speak passionately about issues within their own 
districts.
    Now, sure, Mr. Salazar, we talked about your cemetery 
issues. We worked on that in Veterans' Affairs, but this is the 
first time I have really had an opportunity to do that.
    So, Madam Chairwoman, you are absolutely right. This is a 
bipartisan bill that has worked over the years whereby Members 
who are in close proximity to whatever issues within their 
district--we bring them and work cooperatively and 
collaboratively together to assist these Federal, State, local 
projects. So it was a real treat to listen to all of you 
articulate these concerns. I also have one that I bring to the 
Committee.
    Over the last century, the cities of Lafayette and West 
Lafayette, Indiana, have been working cooperatively to improve 
the quality of life for area residents. Caring for the Wabash 
River has been a key component in their efforts. So cutting 
through these two cities is the Wabash River. You hear Jim 
Nabors sing the song "On the Banks of the Wabash" before the 
start of the Indianapolis 500. He sings that song about the 
glistening sycamores in the sunlight.
    This is the Wabash River to which I am referring. It is the 
most significant natural resource of the dual cities. Over 
183,000 Hoosiers call the Corps area of Lafayette and West 
Lafayette their home, and they are presently in need of 
assistance in giving the River's ecosystem the attention it 
deserves. Local efforts to improve and to care for the 
riverfront have been ongoing. They have earned both local and 
State support, but much more work remains to be done.
    Please note that the project fulfills the goals of the 
Chairwoman, that it has broad bipartisan support from county 
commissioners and from the two mayors of the respective cities. 
Therefore, I am respectfully requesting that language be 
included in the 2008 Water Resources Development Act which 
would authorize a reconnaissance study of the Wabash River 
Corridor Enhancement Project in Tippecanoe County, Indiana.
    The Army Corps of Engineers' involvement in the project has 
been ongoing since fiscal year 2006 when the Wabash River 
riverfront became the subject of two hydraulic studies by the 
Corps' Louisville division. Having determined the hydraulic 
studies to be in the best interests of the area and of the 
River, I requested the funds from the Army Corps of Engineers 
to complete these intricate studies for fiscal year 2006 
planning assistance to the State's moneys. Again, illustrating 
their support for the project, the local community worked to 
provide matching funds for the planning assistance to State 
dollars. The Army Corps of Engineers has continued to show 
interest in the River, and the time has come to move forward to 
maximize the potential while wisely caring for this natural 
resource.
    Progressing logically, the next consistent step is to 
authorize the project under the Army Corps of Engineers' 
General Investigations Program, section 905(b), and to commence 
a reconnaissance study to assess and to address water quality 
improvement, flood risk reduction, ecosystem restoration, and 
recreation issues with the objective of developing a master 
plan for the corridor. The cities sit astride the River without 
fully enjoying the benefits of such a resource in an 
environmentally responsible way. The Committee will gain 
insight and guidance through the Corps' further involvement.
    We seek a healthier Wabash River and a more pleasurable and 
respected resource for the citizens of the greater Lafayette 
area. Developing the riverfront will maintain and preserve the 
Wabash River and will assist the community with a few 
recreational waterfront areas and developing a space for locals 
and visitors to enjoy and preserve the natural beauty of 
Indiana.
    A reconnaissance study is necessary to confirm the 
necessity of the Corps' further involvement. By authorizing 
this logical progression, Congress can expand the Corps' 
already established involvement and can assist the community in 
caring for this vital natural resource. Authorizing the study 
in the Water Resources Development Act of 2008 would allow the 
project to move forward as the process intends.
    I urge the inclusion of language authorizing the Wabash 
River Enhancement Project through the Army Corps of Engineers' 
general investigations program. This exemplary endeavor will 
simultaneously address the environmental conditions of the 
urban section of the Wabash River, while aiding residents in 
their goal to improve the community's quality of life and while 
protecting the riverfront.
    The cities of Lafayette and West Lafayette, Indiana, 
present a worthwhile location for the Army Corps of Engineers' 
efforts. State and local financial support have illustrated the 
necessity of attending to the current condition of the 
riverfront.
    In the interests of propelling the project forward with the 
utmost organization and efficiency, local funds were used to 
form the Wabash River Enhancement Corporation. By working with 
local, State and Federal agencies, the corporation has brought 
a high level of organization and efficiency to this endeavor. 
For the past 3 years, the community, in cooperation with Purdue 
University, which is located in West Lafayette, has been 
working to secure local moneys in preparation for the Corps' 
development. A total of $3,017,840 has been appropriated from 
the local area, including $475,000 in local government funding 
and $2.54 million from the community.
    Additionally, the State legislature recently during its 
most recent session secured 10 percent of the revenue from 
annual county innkeepers' tax to contribute to the funding of 
the project. That will occur year after year until the project 
is completed. This money can be used for matching dollars and 
for making the most of any of the Federal funds directed to the 
meaningful project.
    Residents of the community are acutely aware of the 
important part the riverfront plays in the area's vitality. The 
need for this project, combined with the financial and local 
support, has earned local and State levels, along with 
positions of the Wabash River, as an ideal choice for the Army 
Corps of Engineers' study.
    I also would like the Committee to know that your 
counterpart, Pete Visclosky, on Appropriations is in support of 
this project.
    Madam Chairwoman, I would request to be included in the 
record my written statement, along with the proposed language 
to be included in the bill, also an overview of the project, 
also a letter and testimony to be submitted to the Committee by 
the Mayor of Lafayette, Tony Roswarski.
    Also to be included in the record is a letter and testimony 
from the Mayor of the city of West Lafayette.
    I also would submit for the record a letter from the County 
Commissioner, Ruth Shedd; a letter from community leader and 
President of Henry Poor Lumber, Jim Andrew; and a letter of 
support from John Gams, who is a board member of the Tippecanoe 
County Parks Board; along with a board member of the 
Enhancement----
    Ms. Johnson. Thank you very much. We will make all of that 
a part of the record. Thank you for your valuable testimony.
    Mr. Buyer. Thank you. Thank you very much.
    Ms. Johnson. Our second panel of witnesses consists of the 
Honorable John Paul Woodley, Assistant Secretary of the Army 
for Civil Works, better known as the Corps of Engineers.
    Secretary Woodley, you have been here before. We will put 
your entire statement in the record. I will not fail to say 
that Mr. Buyer took almost twice as much time, so if you 
could----

   STATEMENT OF SECRETARY JOHN PAUL WOODLEY, JR., ASSISTANT 
     SECRETARY OF THE ARMY FOR CIVIL WORKS, WASHINGTON, DC.

    Mr. Woodley. You are very kind, Madam Chair. I have a very 
short statement that just summarizes the statements I make in 
the written remarks.
    It is such a pleasure and a privilege to appear before you 
again and also to greet your new Ranking Member, Mr. Boozman. I 
appreciate this opportunity to speak with you as you craft 
legislation to improve the ways in which the Corps of Engineers 
can serve the Nation in the future.
    Last year, the Corps was facing a large backlog of 
authorized but unconstructed projects. WRDA 2007 has added 
somewhat to that backlog. We should in 2008, I think, establish 
our priorities.
    Among these existing authorizations are priorities that 
favor those projects within the Corps' main mission areas and 
those projects with a very high net economic or environmental 
return per dollar invested or which invest in the highest 
priority human safety issues. We should avoid waivers or 
reductions in non-Federal cost-sharing requirements, should 
avoid shifting Federal responsibilities and cost share among 
Federal agencies and should avoid the shifting of non-Federal 
responsibilities onto the Federal taxpayer for existing 
projects.
    I think it is very important as we go forward to work 
together with the Administration to develop and to execute a 
disciplined WRDA process that is fiscally responsible and that 
is based upon sound and enduring principles that reflect Corps' 
values. We need to invest and not simply spend. We should never 
sacrifice national interests for special interests nor ignore 
the long-term costs in pursuit of short-term payoffs or allow 
preferences to strangle our principles. Without principles and 
without discipline, any process will produce little and waste 
much.
    It was not long after I was appointed and confirmed as 
Assistant Secretary that the gulf coast region was ravaged by 
Hurricanes Katrina and Rita. I can assure you that those events 
helped focus my thinking on the principles that should guide 
the way in which the Corps' projects are authorized and 
implemented. In particular, I want to mention the significance 
of the systems approach, the importance of public safety and 
life-cycle management and the opportunities afforded by 
modernized funding mechanisms.
    In the systems approach, there has been a great increase in 
data collection and in scientific knowledge. We have learned 
much about the need to incorporate the broadest possible 
consideration of water resources systems when planning and 
implementing our projects.
    Our water resources are defined by watersheds, but 
watershed boundaries do not typically correspond to political 
boundaries and jurisdiction. For this reason, the project 
planning process should prioritize and evaluate the efficiency 
of those projects whose development and implementation reflect 
the broadest possible participation by political jurisdiction 
and interests within watersheds.
    Next, public safety and life-cycle management. Recurring 
floods, hurricanes and other circumstances have increased 
public concern about the levels of protection and risk 
reduction provided by levees, dikes, dams, and drainage 
systems. The advancing age of many of our public works has 
resulted in concerns about the safety and soundness of the 
structures themselves. All levels of government must give 
greater consideration to the risk to public safety in the 
resource allocation for operation, maintenance and the life-
cycle management of flood and storm damage reduction 
infrastructure.
    Finally, I believe we should work on modernizing our 
financial mechanisms. I believe we should work harder to better 
align the true cost of providing services with the prices.
    Earlier this month, the Administration submitted to 
Congress a legislative proposal to address the declining 
balance of the Inland Waterways Trust Fund. This proposal would 
establish a user fee for each barge transiting a Corps lot. 
This user fee would be phased in over several years. The 
existing fuel tax would be phased out. Revenues for the new 
user fee would be deposited into the Trust Fund, which has been 
severely depleted by essential work that the Corps has 
completed with full support of the Administration and of 
Congress over recent years. It has been used to finance one-
half of the cost of the capital investment.
    I hope this proposal is favorably received by the Congress 
as a necessary reform. I certainly look forward to working with 
you as you go forward with this important process.
    Ms. Johnson. Thank you very much, Mr. Secretary.
    The Chair of the Full Committee, Mr. Oberstar.
    Mr. Oberstar. Thank you, Madam Chair and colleagues.
    Secretary Woodley, we have achieved a landmark in this 
Congress, accumulating in one bill 6 years worth of water 
resources projects that were not passed by Congress in those 
previous three Congresses. In the year 2000, since the Congress 
moved the Water Resources Development Act, not for lack of 
effort under Chairman Young and with my participation and, of 
course, with all of the Members of this Committee, we three 
times moved the water resources bill from Committee. We just 
never got to it.
    So I find it disingenuous, Mr. Secretary, for you to come 
to this Committee and to say this is the biggest spending bill 
in the history of water resources. You can take up any 6 years 
of the 44 years I have served on this Committee, add up any 6 
years, fast forward the dollar value, and you can say that. I 
want to know what spending in our legislation is not 
investment, huh?
    I have never had an Assistant Secretary of the Army for 
Civil Works come before this Committee during the 12 years I 
have served on staff or in the 34 years I have served as a 
Member and make a statement like that. It shows you either do 
not understand or that you have been directed to say something 
that you do not believe in. I am offended by that.
    That is stern language for me. I will tell you what. We are 
just going to excuse you and give you absolution, and we are 
going to go on and do the public's business, which I think, in 
your heart, you know is the right business to do. We are going 
to move on to another water resources bill. If you have any 
objections about the ones we have already passed, lay them out 
in the public record. Let us hear what your objections are to 
those that are already law.
    But I find it offensive, secondly, that this 
Administration, having heard the will of the people in the 
override, overwhelming vote, then turned around and stuck a 
thumb in the eye of Congress and said we are not going to put 
any of those projects, not a single one of the 920, in our 
fiscal 2009 budget. That, too, is a dereliction of duty, 
frankly.
    What are you going to say to the farmers in the upper 
Midwest? We are not going to expand the locks in the 
Mississippi River? We are not going to reduce the 
transportation costs of moving your goods to market?
    Are we going to allow Brazil, which has a 2,500-mile 
advance start from the Port of Santos--in that part of Brazil 
that sticks out in the South Atlantic Ocean, they have got a 
2,500-mile, 6-day sail advantage over goods moving out of the 
most important grain export facility in the world, New Orleans. 
We are going to let them take a march on us and not improve the 
transit time from Clinton, Iowa, to New Orleans? This 
Administration is not going to put a dime into the rebuilding 
of the wetlands protection and the hurricane protection 
provisions that we have in this bill for East Texas, Louisiana, 
Mississippi, Alabama, and the Florida Panhandle? Come on. I 
have never heard that before.
    I characterize the whole thing as unwarranted, 
inappropriate, undisciplined. Reconsider. Baloney. Without 
being specific about it, I just find that offensive.
    Again, I have never--everyone who has been in that position 
that you hold has come to this Committee with a sense of public 
duty, of public responsibility of water resources investment. 
Seventy-five percent of the population of our country lives 
along the water, either along the saltwater coasts, the east, 
the gulf, the west coast, or the freshwater coast of the Great 
Lakes or along the rivers. Most of our great cities were ports 
before they were cities. Our economy depends on waterborne 
transportation. One barge tow is equivalent to 670 railcars.
    What do you mean you do not want to invest? You call that 
spending wasteful? Nonsense. These are projects that come to us 
from the people, from the businesses, from the interests that 
are dependent upon them, from those who have been devastated by 
the floods, by the hurricanes, by the vicissitudes of weather, 
by drought or by the overabundance of water, floods.
    So fix it. Do it. That is our responsibility.
    From the very first Congress in 1789, the very first act of 
this Committee or of its predecessor, the Rivers and Harbors 
Committee, was to authorize the construction and maintenance of 
a lighthouse at Hampton Roads.
    The second act of the first Congress was like the first, to 
authorize the construction and maintenance of a lighthouse at 
Cape Henry and the entrance at Chesapeake Bay in recognition 
that America was founded on the water, by the water, that our 
goods moved by the water.
    The third act of that first Congress was to authorize the 
establishment of the Revenue Cutter Service to collect tariffs 
on inbound goods to pay off the debt to the Revolutionary War.
    We did it, this Congress, this Committee, its predecessor. 
We have continued to make those investments in America, in its 
mobility, in its goods movement in a more efficient way.
    So I want you to take a history lesson today. Take it back 
to those who sent you.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Mr. Boozman.
    Mr. Boozman. Thank you very much.
    You were not here earlier, Mr. Chairman, when Mr. Buyer was 
here testifying, I do not think, but he said that one of the 
things that he enjoyed was hearing the Members talk with 
passion about their projects. So he would have really enjoyed 
hearing your talking with passion about the whole thing.
    Secretary Woodley, what will the impact of the new lockage 
fees on the inland waterway system have on the use of the 
system? Do you expect a drop in traffic? The inland waterways 
are operating below capacity now, mostly due to a lack of 
operation and maintenance. So how is a toll proposal supposed 
to lure shippers to use our waterways instead of other 
congested modes of transportation?
    Mr. Woodley. Well, Mr. Boozman, I think our view is that 
there would be, as with any other economic good, if you 
increase its cost, however slightly, you are going to have a 
tendency by that means to decline or to decrease its use in 
commerce. I think we regard it as a marginal matter and as a 
very, very small burden, relatively speaking.
    We also consider that the significant thing that would be 
difficult in this context would be the delay of ongoing 
projects and necessary projects for the rehabilitation and new 
construction of facilities on the waterways. That would be a 
problem far in excess of any problems that would be caused by 
the change to the user fee.
    Mr. Boozman. There is a 2008 GAO report of substantive 
reviews needed to align port-related fees with the programs 
they support. Their concern was, again, with the Harbor Trust 
Fund, that it was not being spent. I think Congressman Boustany 
made a very important point, that not only is it not getting 
spent, but if it is not getting spent and then you have 
emergency situations that come up within that sphere and you 
are transferring money and resources into that, then, 
theoretically, you are putting more pressure on the rest of the 
program. Does that make sense?
    Mr. Woodley. Yes, sir. All of the Trust Fund matters are 
subject to appropriation.
    Mr. Boozman. No. I understand.
    I guess the second part is, though, would you and the 
Administration--you know, would you be in favor--you know, 
because of that, are you going to get more aggressive in asking 
for more?
    Mr. Woodley. I think we should ask for as much as we can 
economically justify, and that has been my effort over the last 
2 or 3 years. Our tools that we have for doing that are 
improving, and I hope in the future years that we will be able 
to make a stronger case for more resources from that Trust 
Fund.
    I think that we do not have a position in the 
Administration today on the question of taking the Trust Fund 
off budget and for making it not subject to appropriation. As 
Mr. Boustany suggests, there is, I think, a good case to be 
made on that, but, at the same time, it would have to be 
carefully done so that the Congress felt that it was still 
fully apprised of the uses that were made with public funds.
    Mr. Boozman. Let me ask one more thing, and then we will 
move on.
    As we enter the 21st century, demands for water are 
growing, and we are outstripping supplies in many areas, both 
in the West and in the East, leading to disputes among our 
States. We have had hearings, you know, concerning that over 
water supply allocation. How can the Corps of Engineers play a 
role in helping to ensure an adequate water supply for the 
Nation?
    Mr. Woodley. I think that the Corps has a very important 
role to play in that, but one that is clearly, and should 
remain clearly, subject to the dispensation of the States. I do 
not want to see the Corps of Engineers transgressing upon the 
prerogatives of localities and States when it comes to water 
allocation. That question, therefore, necessarily calls on our 
colleagues at the State and local levels to step forward.
    Where the waterways are interstate in character, it will be 
imperative to arrive at reasonable and just and fair agreements 
among each other as to those allocations. Where that does not 
take place, then the Corps of Engineers finds itself in the 
very unenviable position of having to make dispensations 
because of the necessity of merely operating a system of 
reservoirs on a given watershed. It is a most uncomfortable 
position and not one that I want to put the Army or the Corps 
in.
    Mr. Boozman. Thank you, Madam Chair.
    Ms. Matsui. [Presiding.] Thank you.
    Mr. Woodley, Secretary Woodley, it is great to see you 
here. I know you are supposed to be in Sacramento today, but it 
is great to see you here.
    Mr. Woodley. I am delighted to be in either place but, 
certainly, especially to see you.
    Ms. Matsui. Thank you.
    I have a couple of questions specific to Sacramento. The 
City of Sacramento has initiated its own effort to evaluate the 
needed improvements in the Natomas section of Sacramento. I 
think you are aware of that area. We are working to provide at 
least 100-year flood protection as quickly as possible, as you 
well know.
    I would like to ask you for your commitment to expedite 
Federal actions, including technical, regulatory and 
environmental reviews. I would also like to ask for your 
commitment to expedite approvals and a request for credit by 
non-Federal interests.
    As you know, we are advance-funding this here because we 
realize the importance of working as quickly as possible. So I 
am wondering, can you help the people who are living in that 
area with this?
    Mr. Woodley. Yes, ma'am. We have been paying very close 
attention to the issues in the Sacramento area, and we will be 
doing everything we can to expedite the approvals necessary to 
accomplish that work.
    Ms. Matsui. You know, I have long felt that, in order to 
make our communities get the highest level of protection in the 
quickest time possible, we really need to localize some policy. 
I know that the district folks have been really quite helpful, 
and we have a very good relationship with them, and they 
understand what is happening on the ground.
    Specifically, I am talking about the 408 permit process. By 
allowing the local Corps districts to approve 408 permits in 
certain circumstances--obviously not in all but in certain 
circumstances--so that work can be done quickly to upgrade 
levies, a commitment to public safety will be demonstrated. Can 
you tell me what the Corps is doing to quickly address 408 
permits?
    You realize that the Corps and the local authorities and 
the State have been working very closely together, particularly 
in the area of Natomas. The Corps understands what is happening 
there, and we have been working as quickly as we can. On the 
other hand, sometimes there is a concern that we may have to 
wait for the national here in Washington to make some 
decisions, and then we will have to wait. So can you tell me if 
there is a possibility in certain circumstances to quickly 
address this at the local level?
    Mr. Woodley. Yes, ma'am, there is.
    The section 408 process is not one that we have used very 
often, but it is becoming more and more common, particularly in 
that part of California. My instruction to the Corps--as you 
know, that is a secretarial authority. I have delegated it to 
the Chief of Engineers with authority to subdelegate, and I 
have instructed him to subdelegate that as soon as he has the 
standards in place that can govern the exercise of the 
discretion by his subordinates.
    I believe that we are also exploring specific subdelegation 
in the case that you mentioned of Natomas. I believe that is 
under active consideration. I would expect that--well, I do not 
know if they are going to do that or not, but they have not yet 
told me they are going to do it. I know they are seriously 
thinking about it, and I have encouraged it.
    Ms. Matsui. Okay. Thank you, Secretary Woodley. I hope you 
will follow up with this so I can go back and let them know 
that this is something that is going to be occurring as quickly 
as possible. So thank you very much.
    Mr. Brown.
    Mr. Brown of South Carolina. Thank you, Madam Chair.
    Mr. Secretary, I represent the coast of South Carolina, and 
we are very concerned about the intercoastal waterway. I know 
as we talk about reauthorizing not only the water bill but also 
the transportation bill that there is a connect because we are 
talking about the short sea shipping lines which we want to 
utilize in the intercoastal waterway. That is becoming a major 
project of ours, because it has continued to silt in. Each 
year, we have to ask for appropriations which we call 
"earmarks" in order to be able to supplement the funding for 
that intercoastal waterway, and I am just concerned--in fact, 
we have some numbers I was going to share with you, and I know 
you know pretty much what they are.
    The Corps actually requested some $1.3 million from 2004 to 
2008. During that time, we have been able to plus that up some 
$6.4 million or $7.4 million just to be able to do the bare 
maintenance of that waterway to continue to at least keep the 
depth within some passable range. You know, not only is South 
Carolina concerned about it. It is the whole eastern seaboard. 
Because that waterway is extended from, I guess, New York down 
to Miami. At the same time, the needs of that project were some 
$42 million. So it shows that during that 4-year period to 5 
years that we had some $33 million shortfall.
    My question to you is, what commitment does the Corps have 
in order to continue to maintain the waterways so it could be 
used as short sea shipping and to be able to take some of the 
traffic off of the busy highways and actually put it in the 
intercoastal waterway? What are your thoughts along those 
lines?
    Mr. Woodley. Mr. Brown, our allocations that we have to 
maintain the inland waterways for maintenance dredging are 
extremely limited. So I know that we have put as much into the 
Atlantic intercoastal waterway as possible. I am very concerned 
about its condition. But I believe that as long as our 
maintenance continues to be constrained in the way it has been, 
that we will continue to budget for a caretaker situation and 
then will certainly execute to the best of our ability and in 
the most efficient manner any amounts that Congress allocates 
to the purpose.
    Mr. Brown of South Carolina. Well, that gets me back to the 
topic at hand.
    As we go through the reauthorization for the next water 
bill, we want to incorporate some language in there to enhance 
not only just the intercoastal waterway in South Carolina but 
the intercoastal waterway throughout the whole system. We would 
need some cooperative effort from the Corps to help us partner 
in order to be able to address that problem, particularly in 
light of the new requirements that we are going to be placing 
upon the intercoastal waterway to help move some inland 
freight.
    Mr. Woodley. I would be delighted to cooperate with that. 
That would be a very important effort.
    If, for instance, you look at the waterway segments in the 
State of Florida, they are very active and well-maintained, and 
they are doing something in Florida that we are not doing 
elsewhere. Let me find out what it is and find out if it works 
elsewhere.
    Mr. Brown of South Carolina. Well, I think they are using 
some kind of user fee. I guess this is kind of the way that the 
Administration is moving towards all transportation. They want 
us to use some kind of a user fee as we build new roads.
    So I guess my point is to try to find out exactly what we 
could expect from the Federal Government to address some of 
the, you know, interconnecting needs like the interstate 
highway. I sense the intercoastal waterways are an 
interconnecting road, just like the interstate highway, and it 
is pretty difficult if one segment is going to be fixed and the 
other segment is not going to be fixed. So at least we need 
some coordinated effort to be able to accomplish the whole 
route and not just one segment.
    Mr. Oberstar. Would the gentleman yield?
    Mr. Brown of South Carolina. Yes, sir.
    Mr. Oberstar. I found the Secretary's response to your 
comment puzzling. Puzzling, not confusing.
    I am pretty clear on what I think he means, but there is a 
$4.7 billion surplus in reserve in the Harbor Maintenance Trust 
Fund, is there not, Mr. Secretary?
    Mr. Woodley. I don't know the exact figure, Mr. Chairman, 
but it is a very substantial amount of money.
    Mr. Oberstar. Yes. And it is being held in reserve, I say 
to the gentleman from South Carolina and our colleagues, so it 
will make the deficit look smaller by that amount.
    Now, every President has been doing that ever since Lyndon 
Johnson in 1968. The Harbor Maintenance Trust Fund didn't exist 
then, but the Highway Trust Fund did. The Aviation Trust Fund 
came in 1970, and every Administration, Democrat or Republican, 
has held money back until we, in 1998 in the T21 legislation, 
walled off the Highway Trust Fund with fire walls so that 
reserves couldn't be built up to make deficits look smaller; 
and we--under the leadership of the gentleman from 
Pennsylvania, Mr. Shuster, with me as Ranking Member, we 
restored trust in the trust fund.
    We need to restore trust to the Harbor Maintenance Trust 
Fund--same way, the Aviation Trust Fund. And I hope that the 
gentleman will join in an effort that we launched in 1998--
didn't fully succeed, but in taking the trust fund off budget. 
Aviation Trust Fund, the Highway Trust Fund, the Harbor 
Maintenance Trust Fund so that future residents of the other 
end of Pennsylvania Avenue can't mess with the people's money.
    I thank the gentleman for yielding.
    Mr. Brown of South Carolina. Mr. Chairman, I appreciate 
very much the insight on this. And, in fact, I know it has been 
an ongoing battle for a long time. And I have a copy of an 
article, back in 1892 that was placed in the New York Times, 
about the Charleston Harbor. It said, "Fortunate for the 
Nation, the Congress did not fall into the error of deeming the 
recent call for $2.178 million as an appropriation solely for 
the city of Charleston. The advantage of a 21-foot channelway 
into the Port of Charleston can properly be viewed only from a 
national standpoint. There is hardly any doubt of the 
advisability of such expenditures when, in like proportion, the 
whole Nation is to be benefited."
    And that has been the argument since 1892 on earmarks, Mr. 
Chairman. But thank you very much.
    Mr. Oberstar. Let me go back 44 years earlier. Forty-four 
years earlier, in 1848, when President James K. Polk proposed a 
toll for--proposed a toll to raise the revenues to build the 
canals, and a first-term Member of Congress rose in our body 
and said that he opposed this idea that we should first build 
the--we should first build the waterway so that we will have 
product in it to raise the revenue from which we can then pay 
for the canal.
    That was Abraham Lincoln. Congress listened to Lincoln, not 
Polk.
    Mr. Brown of South Carolina. Well, I am listening to 
Chairman Oberstar. I think he has got a great idea.
    Ms. Matsui. [Presiding.] Thank you. I didn't realize we 
were going to have a history lesson today. But I have to be 
prepared the next time I bring some facts about 1849 and the 
Gold Rush and what happened to our riverways because of that.
    But, nevertheless, I would like to call upon the gentlelady 
from California, Ms. Napolitano.
    Mrs. Napolitano. Thank you, Madam Chair. And I do enjoy the 
history lesson from Mr. Oberstar. Every time I hear him I learn 
something new.
    Secretary Woodley, I certainly want to thank the Army Corps 
for working with one of my cities and the county in regard to 
the Whittier Narrows, and hope that continued support will be 
there to be able to do that assessment of the Whittier Narrows 
and do it expeditiously so we don't lose time.
    I know that we have had some discussions on this before, 
but I want to continue to impress upon the Army Corps how 
important this is to that whole area, not just to my community; 
and I thank you for your staff being there with us in getting 
that done.
    Mr. Woodley. Yes, ma'am. You are more than welcome.
    Mrs. Napolitano. The question I have is, in southern 
California it is adapting to the shortage of traditional water 
sources by tapping more into groundwater and alternative water 
sources.
    What do you think about recycling, reuse, desalination and 
other alternative approaches? What role should that play in the 
additional supply of water in our next Water Resources 
Development Act? And I say that very facetiously because as 
Chair of the SubCommittee on Water and Power, every single 
water recycling bill that we propose, the Bureau of Reclamation 
has found fault with it and the Administration does not support 
it.
    And to me, as you have heard, we all think water is going 
to be one of our most precious resources, to be able to not 
only take care of it, but continue to evolve ways of being able 
to clean the water, to be able to recycle the water, et cetera, 
et cetera.
    So what do you think? Which of those alternative approaches 
would play?
    Mr. Woodley. Ms. Napolitano, I wish I understood how anyone 
could express opposition to water recycling concepts. It is a 
concept I have strongly championed ever since my time at State 
government in Virginia. It is astonishing to me that we don't 
have more. And I know, for instance, that one of the ways we 
have managed the Santa Ana Project is to make releases into 
designated recharge areas.
    Mrs. Napolitano. Right.
    Mr. Secretary, I am sorry, but--my time is very limited, 
but my concern is that the Bureau has almost 400 million worth 
of backlog, and they are asking for 9 million for next year's 
budget. So at that rate there is not going to be any help for 
any of our constituents' communities to be able to help 
themselves and be able to face this global warming issue that 
we are all looking at coming down on us.
    So would there be a new and innovative way the Corps could 
help out to assess some of these water issues?
    Mr. Woodley. I am sure there is, and I would be delighted 
to explore that with you.
    Mrs. Napolitano. I would be delighted to sit with you, sir.
    And then warmer temperatures will alter the hydrological 
cycle and intensify flooding and drought conditions, as we have 
seen throughout the country.
    What is the Corps doing or what will they do to address the 
potential impact of climate change on our water resources 
throughout the country? And I know Water for America is trying 
to do that. But from the Army Corps of Engineers' standpoint, 
what do you see?
    Mr. Woodley. I can refer you to the specific testimony at 
the hearing that was held on that particular point by Major 
General Don Riley of the Corps of Engineers, who gave a 
detailed explanation. But I can tell you, in general, in the 
very short time we have, that we are keeping a very close watch 
on the science and the reality of climate change on the ground 
as it changes hydrology. We are operating in it with 
interagency Committees, with the Bureau of Reclamation and 
others to make sure that all of our projects are implementing 
the most current understanding of the effects of climate change 
on hydrological resources.
    Mrs. Napolitano. I really, truly appreciate it.
    And I ask the Subcommittee Chair and also the Chair of the 
Transportation, Water, as well as my Committee, that we would 
be delighted to work with the Administration and the agencies; 
and we have yet to hear from any of them.
    Thank you, Madam Chair.
    Ms. Matsui. Thank you.
    I would like to call upon the gentleman from Louisiana, Mr. 
Boustany.
    Mr. Boustany. Thank you, Madam Chair.
    First of all, Secretary Woodley, let me thank you and 
General Van Antwerp and everyone with the Corps for the fine 
work that is being done in Louisiana. We appreciate everything 
that is being done, particularly in the aftermath of both 
hurricanes.
    Chairman Oberstar, my esteemed friend and the Chairman of 
the Committee, and our Ranking Member on the Subcommittee, Mr. 
Boozman, both brought up the Harbor Maintenance Trust Fund, and 
Mr. Boozman, in particular, referenced the February 2008 GAO 
report. And so I have a follow-up question.
    That is, if the Army Corps of Engineers had access to all 
the annual revenues generated by the Harbor Maintenance Trust 
Fund, which is by my calculation just in excess of $1.3 billion 
last year, would this allow the Army Corps of Engineers to 
reduce or eliminate over a sustained period of time the backlog 
of dredging required to maintain all Federal channels at their 
authorized width and depth?
    Mr. Woodley. Yes, sir, I believe it would.
    Mr. Boustany. Because it is my understanding that as we go 
through the appropriations process, we are appropriating 
substantially less than that. So perhaps as we look at ways to 
create efficiencies in the use of the Harbor Maintenance Trust 
Fund, should we look at walling off the annual revenue coming 
in to make sure that we are taking care of those ongoing 
operations and maintenance needs to meet the authorized 
programs?
    Mr. Woodley. Well, that would certainly be one approach 
that could be taken, yes, sir.
    Mr. Boustany. All right. Thank you.
    Just last week we had a situation that arose in my district 
whereby, because of the emergency needs for the Mississippi 
River that I alluded to in my opening comment that funds, vital 
funds, over $11 million were going to be reprogrammed from 
vital projects in my district to deal with the emergency 
situation--and I mentioned the Calcasieu ship channel which has 
vital implications for energy in this country, that was going 
to be put in really dire straits to the point where shipping 
traffic, if that funding were not there for dredging, shipping 
traffic would come almost to a halt.
    And so it seemed to me that in reprogramming funds to deal 
with this emergency, we were not really looking, or at least 
those making the decisions to reprogram were not looking, at 
the real consequences of what was going to happen. And I was 
told that perhaps, you know, those funds were not going to be 
used in the fourth quarter; but realistically, we know how hard 
it is once funds do get reprogrammed.
    So with the surplus we have got in the Harbor Maintenance 
Trust Fund, wouldn't it make more sense to be able to find ways 
to tap into it for real emergency needs without affecting those 
operations and maintenance issues that are ongoing? And I am 
just looking for ways of how can we reform the way this Harbor 
Maintenance Trust Fund is being used to make it more efficient.
    Mr. Woodley. I think you make a very good point. And I can 
assure you that the people in the Corps making the decision 
with respect to the shifting of dredging funds from Calcasieu 
to Southwest Pass are deeply and profoundly concerned about the 
effect of that, and are working throughout, wherever they can 
within the system, to find ways to mitigate that impact and to 
find other surplus funds that are able to be devoted to 
Calcasieu and the other projects.
    Or, indeed, I think it may--and this is something I don't 
have approval on, so I am going to have to be very tentative--I 
think it is something that might be considered appropriate for 
a supplemental action in the midyear context on the 
appropriations side. But--as I said, I can't advocate for that 
because I don't have any clearance to do so, but certainly it 
is the type of emergency--and the approach that you described 
for the trust fund would certainly sound like a valid concept 
to me because of the nature of dredging.
    We try to predict it when we do our budgeting, but 
essentially we are now predicting for the 2010 submission. 
Well, it is only 2008, and so I don't have really--I have 
historical information and averages over time and that sort of 
thing that I can use; but water resources are dynamic, and I 
don't know what the needs are going to be in 2010. So I agree 
that a maximum degree of flexibility within strict limits would 
be extremely valuable for the program.
    Mr. Boustany. I appreciate that answer.
    Dealing with the specific situation with Calcasieu, last 
week I spoke with Steve Stockton, director of civil works, and 
Gary Lowe, chief of program integration; both were very 
helpful. And subsequent to that, they found a way or some other 
pool of money so as not to have to, you know, reprogram funds 
away from Calcasieu and, I think, the Freshwater Bayou project.
    But it just struck me, there are some things we can do with 
this Harbor Maintenance Trust Fund that would expedite and make 
more efficient the use of those funds without draining the 
entire surplus. I mean, simply just using the annual revenue 
coming in to meet the operations and maintenance budget and 
having a mechanism to tap into it for emergency needs without 
having to go--have Congress act upon another supplemental for 
something like this would be steps that, at least I have 
thought of so far, might be useful. And there may be others. 
And I would be interested in working with the Corps in finding 
a way to make this trust fund work more efficiently.
    I see my time has expired, and I thank you.
    Mr. Woodley. Yes, sir.
    Mr. Boustany. Thank you, Madam Chair.
    Ms. Matsui. Thank you, Mr. Boustany.
    I recognize the gentleman from Washington, Mr. Baird.
    Mr. Baird. I thank the Chair.
    Mr. Woodley, can you talk a little bit about the 
perspective on the Minimum Dredge Fleet in the Pacific 
Northwest? I happen to be a supporter of it. We have Columbia 
River and its various tributaries.
    Mr. Woodley. Yes, sir, the Essayons and the Yaquina.
    Mr. Baird. Yes, sir.
    Mr. Woodley. I have visited each of them. They are 
marvelous vessels, and our intent is to continue them in 
service as busy as they can be for the indefinite future.
    Mr. Baird. That is very good to hear. Prior folks have not 
always seen it that way; and I tell you, we need those, all the 
shipping that travels the Columbia River and the various other 
things. So thank you for that.
    I also represent a number of small harbors. Many of these 
are very rural, small, fishing communities; and oftentimes the 
fish processor or the port or the fishing fleet is about the 
main game in town in terms of the income, and yet--it is 
increasingly difficult in Corps budgets to find funding to 
maintain small harbors, and yet if those harbors close, the 
economic impact is dramatic for that community. The community 
itself doesn't have the money to maintain it.
    I wonder if you could share with us your thoughts about 
that issue, about small harbor maintenance dredging.
    Mr. Woodley. They are very similar to the thoughts that I 
shared with Mr. Brown concerning the relatively low-use inland 
waterways; and that is that in our current posture, our ability 
to reach them with the funds we are given is very minimal, and 
as a result, I believe that we need to seek out new mechanisms 
and new partnerships to better leverage our funds and to get 
the ability to manage these on a more rational basis.
    The idea of just letting them silt in and then waiting and 
hoping that somebody else will show up and do the work is not 
very satisfactory to me. But I can tell you, that is the policy 
we are now undertaking.
    And so it is not satisfying to me, but I have so far not 
been able to attract much attention to the need to implement a 
different concept.
    Mr. Baird. Well, I appreciate your sensitivity to it. 
Because if you can visit, as you probably have, some of these 
communities, and the fishing fleet can't get in, that is it: 
Game over for those communities.
    And once the fleet can't get in, they will find another 
place to go. And it is not just game over this year, it is 
probably game over for a long time to come.
    One of the challenges that puzzles me perpetually is, you 
know, we have--at least I think it is--Corps-wide policy, but 
there is such a frequent rotation of the commanders in our 
regions. I believe it is about every 2 years or so folks rotate 
out. And my impression has been--we get top-flight people. 
Goodness gracious, the Corps has fine people working for it.
    But, you know, it seems like it takes a 6-month period--no 
matter how good they are, there is about a 6-month start-up 
period, and then there is about a year or so of productivity 
where they are really game on, and then they are getting ready 
to be replaced by the next person.
    Have you ever thought about extending the tours? What is 
the rationale for this short rotation? You just don't want them 
to go native and care about us, or----
    Mr. Woodley. Sure. Actually, it is much more complicated 
than that. There are 38 engineering districts; of those, six 
are regarded as smaller districts. They are commanded by 
Lieutenant Colonels--Charleston, Nashville, that size of 
operation. The others are considered major districts or larger 
districts; they are commanded by full Colonels. And that is a 
command slot.
    The officers are not civil works officers. They are 
engineer officers. They are combat soldiers who are trained 
engineers and have sometimes served before in civil-works-
related positions; sometimes not, often not. And what we 
benefit from is their decisiveness, their organizational 
skills, their leadership capacity.
    And they are some of the best public servants in the 
country. As military officers holding command positions, the 
DOD-wide policy, or at least Army-wide policy--I should speak 
of what I know; I think it is DOD-wide, but it is certainly 
Army-wide--is that a command tour in the grade of Lieutenant 
Colonel is a 2-year tour. A command tour in the grade of full 
Colonel is a 3-year tour. Any change on that would put the 
people that are assigned to those positions at a disadvantage. 
If we had one rule and the rest of the Army had a different 
rule, the people that were then assigned to our positions would 
be at a disadvantage with respect to their peers in the Army 
hierarchy and in the progression of promotion and assignment 
within the Army.
    And so it is not something that is related to the civil 
works program. It is a function of having the civil works 
program in the Army. We take all the good of that--and it is 
very, very good--we take some of the constraints and things 
that are not necessarily so good. So if we were in a position 
like another agency, Fish and Wildlife Service, we would have a 
senior civilian who might stay there for 20 or 30 years.
    Now, in every case we do have a senior civilian in the 
deputy role who, if you look at them, you will find that they 
had been serving in that district or in sister districts 
usually for decades.
    And so we rely on the civilians for the continuity and for 
the intimate, local knowledge. We rely on the military for the 
drive, enthusiasm, leadership and organizational skills and 
can-do attitude that only--not only, but certainly that 
military men and women do represent.
    And I think the Nation has been well served, on balance.
    Mr. Baird. I think they do a great job and they are 
remarkable human beings. I appreciate your praise of them.
    I have nothing but praise. It is just that I represent a 
large district, but that is just one district out of the broad 
scope that they have got to cover. Just getting up to speed on 
that is tough. So thank you for your answer.
    Madam Chair, thank you for your time.
    Ms. Matsui. Thank you.
    And I have a final question for you, Mr. Woodley. As you 
know, prior Administrations have forwarded comprehensive 
legislative proposals to Congress containing recommendations 
for water resources bills. The last one that we here could 
remember was submitted by Assistant Secretary Joseph Westphal 
during the Clinton Administration; and other than the new lock 
fee proposal that you discussed in your testimony, is this 
Administration going to put forward a comprehensive legislative 
proposal for the 2008 water resources bill?
    Mr. Woodley. Ms. Matsui, I believe that we do not now have 
a plan to do so.
    Ms. Matsui. There is no way we can give you some 
suggestions?
    Mr. Woodley. I am always open to suggestions.
    Ms. Matsui. Okay. But at this time you have no plans?
    Mr. Woodley. At this time, we have no plans to do so.
    Ms. Matsui. Thank you. Secretary Woodley, thank you for 
your testimony.
    And I suggest that all Members of the Subcommittee may have 
some follow-up questions for the record. And we would all 
expect a timely response to any questions forwarded to you. And 
thank you very much for being here.
    Mr. Woodley. Certainly. I am delighted.
    Ms. Matsui. Our next panel consists of Mr. James H.I. 
Weakley, President of the Lake Carriers' Association; Mr. Nat 
Williams, State Director of The Nature Conservancy, Maryland, 
and Acting Director of Government Relations for The Nature 
Conservancy; Mr. Stephen Little--Steven or Stephen?
    Mr. Little. Stephen.
    Ms. Matsui. Stephen Little, President and CEO of Crounse 
Corporation, and General Counsel of Waterways Council, Inc.; 
Mr. Chad Berginnis, Chief of the Ohio Emergency Management 
Agency Mitigation Branch, testifying on behalf of the 
Association of State Floodplain Managers, Inc.; Mr. Warren 
"Dusty" Williams, General Manager and Chief Engineer of the 
Riverside County Flood Control and Water Conservation District, 
testifying on behalf of the National Association of Flood and 
Stormwater Management Agencies; and Mr. Richard Brown--is he 
here? Okay--President of the National Federation of Federal 
Employees.
    And as we noted to previous panels, your full statements 
will be placed in the record.

  TESTIMONY OF JAMES H.I. WEAKLEY, PRESIDENT, LAKE CARRIERS' 
  ASSOCIATION; NAT WILLIAMS, ACTING DIRECTOR, U.S. GOVERNMENT 
  RELATIONS AND STATE DIRECTOR, MARYLAND CHAPTER, THE NATURE 
     CONSERVANCY; STEVE LITTLE, PRESIDENT AND CEO, CROUNSE 
  CORPORATION, GENERAL COUNSEL, WATERWAYS COUNCIL, INC.; CHAD 
BERGINNIS, CFM, CHIEF, OHIO EMA-MITIGATION BRANCH, STATE HAZARD 
MITIGATION OFFICER; WARREN D. "DUSTY" WILLIAMS, GENERAL MANAGER 
  AND CHIEF ENGINEER, RIVERSIDE COUNTY FLOOD CONTROL & WATER 
CONSERVATION DISTRICT, ON BEHALF OF THE NATIONAL ASSOCIATION OF 
FLOOD AND STORMWATER MANAGEMENT AGENCIES; AND RICHARD N. BROWN, 
    PRESIDENT, NATIONAL FEDERATION OF FEDERAL EMPLOYEES IAM

    Ms. Matsui. Mr. Weakley, please proceed.
    Mr. Weakley. My name is Jim Weakley. I am President of the 
Lake Carriers' Association, an organization of U.S. Flag vessel 
operators on the Great Lakes, and an officer of the Great Lakes 
Maritime Task Force, a coalition of Great Lakes maritime 
interests.
    Madam Chairwoman, I again want to thank Chairwoman Johnson 
and Congressman Kagen for holding a field hearing in Green Bay 
2 weeks ago.
    Today, I am here testifying on behalf of a national 
coalition that is very concerned about the impacts on Federal 
ports and harbors that cannot be fully maintained with existing 
Corps funding levels. We advocate an initiative to seek full 
access to the annual revenues generated by the Harbor 
Maintenance Trust Fund. I would like to build on the comments 
by Chairman Oberstar regarding this fund.
    In 2007, the trust fund collected from shippers more than 
1.4 billion, yet only 751 million was spent from the fund. 
Ports and harbors were not able to be dredged to their 
authorized project dimensions.
    I don't need to convince this Subcommittee of the 
importance of a vibrant maritime industry and efficient 
waterways. My written testimony contains many statistics which 
you are all well aware of regarding the economic benefits of 
our ports. Jobs are at stake. In addition, the U.S. Military 
depends on our ports to deploy troops and equipment during 
national emergencies.
    America's navigation system is at a crossroads. The future 
hinges on much-needed Federal attention to unresolved funding 
needs. Most ports and harbors must be dredged regularly. The 
Corps reports that almost 30 percent of the 95,000 vessel calls 
at U.S. Ports are constrained by inadequate channel depths. We 
are losing existing business and potential new business to 
ports outside the U.S., and once lost, it is rarely regained.
    In many parts of the United States we face a dredging 
crisis. On the Great Lakes, as Chairman Oberstar knows, decades 
of funding for dredging have left a backlog of $231 million. 
Some lakes' ports have actually shut down due to inadequate 
dredging.
    There are similar examples of dredging problems in ports 
and harbors nationwide. Vessels must load light because of 
dredging shortfalls. The economic implication of light loading 
is enormous. On the Great Lakes, vessels lose between 50 to 270 
tons of cargo for each inch that they must reduce their draft. 
In some areas the loss is measured in feet, not inches.
    The Harbor Maintenance Trust Fund was established in WRDA 
1986. The trust fund applies an ad valorem tax on the value of 
cargo loaded or unloaded on vessels using federally maintained 
channels. The trust fund is designed to pay for 100 percent of 
the Army Corps of Engineers O&M expenditures at ports and 
harbors. Would it surprise you to know that the trust fund 
revenues significantly exceed trust fund expenditures by an 
increasing margin? The fund is being held hostage to pay for 
other things.
    In 2007, the trust fund began with a $3.3 billion surplus, 
collected an additional 1.4 billion, resulting in a $4.7 
billion balance, while only 751 million was utilized for 
maintenance dredging. Incredible. We must solve this problem. 
We must use the trust fund for its intended purpose, 
maintaining Federal ports and harbors.
    Other modes of transportation have faced similar problems. 
Although we are in the early stages of addressing this problem, 
our coalition believes Congress should consider an approach 
similar to the Highway Trust Fund and the Aviation Trust Fund. 
Congress legislatively enacted fire walls, essentially 
guaranteeing minimum levels of spending that could be only used 
to support eligible projects. A fire wall ensures that moneys 
from a tax will be used for its intended purpose, and not for 
deficit reduction.
    Thank you, Madam Chairwoman, for your interest in this 
important issue. My message is simple. Use the Harbor 
Maintenance Trust Fund for its intended purpose, to address our 
Nation's dredging crisis. It is time to put the trust back in 
the trust fund.
    Ms. Matsui. Thank you, Mr. Weakley.
    Ms. Matsui. Mr. Williams?
    Mr. Nat Williams. Thank you, Madam Chairwoman. Madam 
Chairwoman, Members of the Subcommittee, thank you for the 
opportunity to testify on proposals for the Water Resources 
Development Act of 2008.
    I am Nat Williams, the State Director for The Nature 
Conservancy in Maryland, and the Acting Director of The Nature 
Conservancy's Government Relations Department. I am here today 
before the Subcommittee with The Nature Conservancy's 
perspective on some successes in ecosystem restoration and to 
offer suggestions for improving current efforts.
    Before I begin my comments on WRDA 2008, I would like to 
applaud you, Madam Chairwoman, and Members of the Subcommittee 
for passing WRDA 2007 last year. The long-awaited bill included 
a number of important provisions to help advance ecosystem 
restoration efforts across the country. And we also appreciate 
the Subcommittee's plans to return to a biennial 
reauthorization schedule for this important legislation.
    The Nature Conservancy's conservation work is carried out 
in all 50 States and in 32 countries. The Corps of Engineers 
has been a key conservation partner as the Conservancy has 
expanded its efforts to restore large ecosystems such as the 
upper Mississippi River and the Everglades, and carrying out 
numerous smaller-scale restoration projects. Drawing on this 
experience, I will offer a few ideas on how we can improve 
efforts to restore our Nation's ecosystems.
    The Nature Conservancy has spent more than a decade 
developing regional assessments to guide investments in 
conservation and restoration. By evaluating conservation needs 
across geographically similar areas, these assessments provide 
data and information that allow agencies and conservation 
organizations to set priorities for actions and funding.
    Based on this experience, we believe it is important to 
invest in efforts to determine how multiple needs in a 
watershed, river basin, or coastal area can be met, and use 
that information to guide our investments in ecosystem 
restoration and infrastructure development. The newly 
reauthorized Navigation and Ecosystem Sustainability Program 
for the upper Mississippi River, known as NESP, provides a good 
model for such an approach.
    NESP has unique authority that brings together both 
navigation and environmental interests to create and implement 
a shared vision for the Mississippi River. NESP, as authorized 
in WRDA 2007, will engage a broad array of Federal agencies, 
industry, and nongovernmental stakeholders to ensure the long-
term economic and environmental sustainability of the river. It 
is a critical addition to the Corps' authority because it 
allows the Corps to manage the system for multiple purposes and 
evaluate river-wide processes and functions as projects are 
selected and implemented.
    We urge the Subcommittee to explore similar regional 
approaches to ecosystem restoration and seek to balance 
multiple needs within a river basin, set science-based 
priorities for restoration.
    The second issue I would like to discuss briefly is how to 
improve the Corps' ecosystem restoration authorities and, in 
particular, sections 1135 and 206. The Conservancy has been the 
lead non-Federal sponsor on 17 section 1135 and 206 projects, 
ranging from dam removal to floodplain and coastal restoration.
    Our experience suggests there have been many worthwhile and 
successful 1135 and 206 projects being implemented around the 
country; however, the demand for these programs has created a 
backlog that stymies progress. In Maryland, my own State, for 
example, we have been seeking section 1135 funding for over 4 
years for a new project that would modify a 1920s-era Corps 
facility on the Potomac River, right upstream here in D.C. 
Despite strong local congressional support and significant 
ecological benefits, including the protection of multiple 
endangered species, the project has been unable to garner any 
funding.
    In Illinois, The Nature Conservancy has been the non-
Federal sponsor on two projects, Spunky Bottoms 1135 project 
and Emiquon 206 project, that seek to restore thousands of 
acres. In light of our experience in Illinois and Maryland and 
in light of the fact that demand for Corps restoration dollars 
will always exceed available funding, it is important that 1135 
and 206 programs are administered in a way that focuses on the 
projects resulting in the highest ecological and financial 
return on the dollars invested. Therefore, we recommend setting 
objective and transparent ecological criteria to evaluate 
projects for funding and giving priority to those projects that 
form broad partnerships and attract funding beyond the required 
cost share.
    And lastly, I would like to highlight some important work 
the Corps and Conservancy are doing for the Sustainable Rivers 
Project, aninnovative partnership to define the water flow 
needs of river ecosystems and use that information to update 
Corps reservoir operating plans. Our work, to date, at pilot 
projects in eight river basins nationwide has demonstrated that 
modest adjustments to reservoir operations can yield 
substantial improvements in ecosystem health while minimally 
affecting other dam functions.
    In closing, we urge Congress to make the restoration of 
ecosystems that contribute to the safety, welfare and 
livelihoods of local communities one of the Nation's top water 
resources priorities.
    I would like to thank the Chairwoman and the entire 
Subcommittee for the opportunity to provide some suggestions on 
how Congress can support and improve ongoing restoration 
efforts and build upon the important work already taking place. 
Thank you.
    Mrs. Napolitano. [Presiding.] Thank you for your testimony, 
Mr. Williams.
    And now we will have Mr. Little give his testimony.
    Mr. Little. Thank you, Madam Chair, Members of the 
Subcommittee. I am Stephen Little, the President and CEO of 
Crounse Corporation in Paducah, Kentucky. We own and operate 27 
towboats, over 900 barges, move about 35 million tons a year. I 
am also General Counsel of the Waterways Council, the national 
organization that advocates for a properly funded and well-
maintained system of inland waterways and ports.
    Waterways Council educates government decision makers, the 
news media, and the general public about the critical 
importance of the Nation's inland waterways and the need to 
sustain and increase their reliability. The Council's 240 
members include carriers, shippers, labor associations, 
suppliers, and ports that use, operate and maintain the 
Nation's 12,000 miles of navigable waterways.
    Madam Chair, I am also a member of the Inland Waterways 
Users Board.
    Thank you for providing WCI with this opportunity to 
testify in opposition to the Administration's significant tax 
increase, which is really what the barge lockage fee proposal 
is, and in support of a far superior alternative.
    First and foremost, no one should be fooled by the 
Administration's label. While calling it a lock user fee, the 
Administration proposes to approximately double the amount that 
the Federal Government collects each year from barge companies 
in order to support inland waterways system modernization.
    It is no secret that the Nation's economy has slowed 
precipitously, and we may already be in a recession. The very 
last thing that anyone should propose at this time is a tax 
increase which will increase consumer costs and further depress 
the economy. Yet that is precisely what the Administration 
proposal will do.
    Also, doubling the amount of revenues extracted from the 
inland waterway industry will drive commerce off the waterways 
and onto congested highways and railroads, exactly the opposite 
of what national transportation policy should seek to do. 
National policy should be incentivizing barge transportation 
instead of penalizing it, as the Administration proposes.
    The Administration's barge lockage fee will adversely 
impact economic interests throughout the country in an uneven 
and, in some cases a punitive manner. States like Pennsylvania, 
West Virginia, Kentucky, Ohio, Tennessee, Indiana, Illinois, 
Missouri, Iowa, Wisconsin, and Minnesota will be particularly 
hard hit.
    Some barge companies and shippers will see the amount of 
taxes they pay skyrocket. The imposition of new taxes at this 
time is counterproductive and contrary to the public interest.
    The Administration says that the proposal is to address the 
declining balance in the trust fund. That is true, the balance 
is declining. That is a positive thing in WCI's view, in that 
the surplus in the trust fund is finally being spent more for 
its fully intended purpose.
    The previous ballooning balance reflected a government 
failure to abide by what this Committee, Madam Chair, your 
colleagues have described in your Views and Estimates Report, 
and I quote, ``a contract between the government and the 
user,'' whereby the waterways industry pays its diesel fuel 
taxes and, in return, the government pledges to use those 
receipts to modernize the navigation system.
    Today, we unfortunately face another government failure 
because projects supported by trust fund expenditures are not 
being built in a timely and cost-effective manner. The first 
seven projects authorized by WRDA 1986 established the current 
cost-sharing formula, and those projects were completed, on 
average, in just 6 years over schedule, for just 30 percent 
more than what Congress authorized.
    Now, today, five projects currently under way are forecast 
to take 17 years and at a completion cost that is more than 
double the authorized amount. Not just the cost overrun, but 
even more so the excessive time to complete projects, make the 
current cost-sharing bargain unfair to the users, whose 
benefits from the projects are so reduced.
    Madam Chair, instead of raising the industry's taxes, what 
is needed is an intense, focused effort to examine why it takes 
so much longer and costs so much more to do this work today. 
This effort must identify the structural and process changes 
both within the Corps' control and external to it that are 
required to get more project for the dollars that are currently 
being contributed by the industry.
    WCI and others believe that the most appropriate policy 
response at this time is to adjust the cost-sharing formula 
applicable to the trust fund. Instead of requiring that one 
half of the costs to construct a project come from the diesel 
fuel taxes that the industry currently pays into the trust 
fund, WCI recommends that one-fourth of the funds be drawn each 
year from the current diesel fuel taxes for that year, and the 
remainder be drawn from general revenues.
    When comparing amounts designated in each of the last few 
years in appropriations acts for the trust fund projects with 
the barge diesel tax revenues deposited into the trust fund 
each year, the adjusted cost-sharing formula which I alluded to 
would not be much different from the actual funding results 
we've experienced.
    Mrs. Napolitano. Would you wrap it up, please?
    Mr. Little. And in conclusion, Madam Chairman, thank you 
again for the opportunity to present this testimony. And I 
would be pleased to respond to any questions you may have. 
Thank you.
    Mrs. Napolitano. Thank you so much. Your submission will be 
entered into the record, so thank you very much.
    We now go to Mr. Chad Berginnis.
    Mr. Berginnis. Good afternoon, Madam Chair, Ranking Member 
Boozman, and distinguished Members of the Subcommittee. I am 
Chad Berginnis, Mitigation Policy Coordinator for the 
Association of State Floodplain Managers, and Board Member of 
the Ohio Floodplain Management Association, a chapter ASFPM. I 
am honored to present ASFPM's views on a WRDA 2008.
    The mission of the ASFPM is to reduce flood losses in the 
United States and to preserve and enhance the natural functions 
of floodplains. Our 26 chapters and 11,000 members work in all 
aspects of floodplain management and are the Federal 
Government's partners in implementing flood loss reduction 
programs.
    In this respect, ASFPM facilitates policy discussions on 
flood-related issues. One such venue, the Gilbert F. White 
National Flood Policy Forum, brought together senior Federal 
agency staff and many experts to explore floodplain management 
in 2050. The forum challenged attendees to think broadly about 
the adjustments we will need to undertake to successfully 
manage flood risk and flood losses in the not-so-distant 
future. Overall, it was concurred that in the next 40 years we 
will be characterized by unprecedented changes in flood risk 
and rapid acceleration and threats to water-based ecosystems.
    Consider that the Nation will add between 100 and 150 
million people, 40 percent more buildings than we have today, 
and experience increased pressure to build in high-risk areas. 
Proper actions taken now could lead to a safer future and 
sustainable communities. This is where WRDA 2008 comes in.
    I would be remiss if I didn't highlight three very 
important provisions of WRDA 2007 that will serve the Nation 
well into the future: The establishment of a Committee on Levee 
Safety, with the purpose of creating a national levee safety 
program; a requirement to update principles and guidelines; and 
the establishment of an independent peer review mechanism. We 
urge the Committee to monitor the implementation of these 
provisions, and appreciate the Committee's wise judgment in 
passing these provisions.
    Our first suggestion for a WRDA 2008 is the implementation 
of a sliding cost share for flood loss reduction projects. 
States and communities share responsibility for flood loss 
reduction efforts and should therefore take proactive measures 
to reduce or eliminate losses. Any community, even those 
seeking assistance from the Corps, can undertake an array of 
activities to reduce flood losses.
    Wouldn't it make sense from a policy perspective that those 
communities who undertake these proactive measures could 
receive a more favorable cost sharing? Currently, all 
communities, even those that do nothing, pay the same cost 
share. ASFPM believes that a sliding cost share could be a 
powerful incentive for States and communities to undertake 
flood loss reduction activities on their own.
    Our second recommendation for a WRDA 2008 is to take 
measures to eliminate bias against nonstructural floodplain 
management projects. One such measure would be to change the 
cost share for nonstructural flood loss reduction projects to a 
75/25 from a 65/35. Nonstructural projects do not have costs 
related to the failure and subsequent repairs like structural 
projects do. Also, a 75/25 cost share is consistent with FEMA's 
nonstructural flood mitigation programs.
    Another measure is to allow for the offer of preflood 
market value in the Corps' nonstructural flood acquisition 
programs. Such a change in policy would encourage this 
mitigation measure and would also be consistent with the FEMA 
mitigation programs.
    Our third recommendation for WRDA 2008 is to implement 
measures which foster better interagency coordination with 
FEMA. Our written testimony lists several items where this is 
possible.
    In a very significant way, existing programs such as 
floodplain management services and planning assistance to 
States could be beneficial. Currently, these programs can be 
used to meet technical assistance needs of small communities 
that might not otherwise qualify for large Corps projects. Also 
there is potential for expansion. For example, the FPMS program 
could assist communities and States to evaluate existing levees 
and assist with certification of those as safe, providing a 
specific level of flood protection. ASFPM believes that the 
demand and potential of the FPMS and PAS programs justify an 
increased authorized amount.
    Finally, a WRDA 2008 should include provisions for the 
establishment or reestablishment of a national flood hazards 
coordinating entity. One trend that we cannot ignore is that of 
increasing demand of nondiscretionary programs. As we move 
forward, competition for our limited resources will increase. 
Federal agencies who are involved in flood loss reduction 
programs must coordinate their efforts to achieve effective and 
efficient results. In considering and ultimately adjusting 
policy-oriented provisions in a WRDA, this Committee can take 
positive steps in reducing our Nation's flood losses.
    This concludes my testimony, and I will be happy to answer 
any questions. Thank you.
    Mrs. Napolitano. Thank you very much. I appreciate you 
staying within the time frame. I didn't have to gavel you. 
Thanks.
    I would like to move on to Mr. Warren "Dusty" Williams.
    Mr. Warren Williams. Thank you, Madam Chair, Members of the 
Committee. I am the General Manager/Chief Engineer of the Flood 
Control District of Riverside County in southern California.
    I am appearing before you today representing NAFSMA, the 
National Association of Flood and Stormwater Management 
Agencies. NAFSMA is a 30-year-old organization which represents 
more than 100 local and State flood control agencies, serving 
more than 76 million citizens from across the Nation. I am 
pleased to have the opportunity to address this Committee on 
priorities for the Water Resources Development Act of 2008, an 
issue of strong interest to all of those I represent.
    NAFSMA wishes to thank the leadership on both sides of the 
aisle for all the assistance to move WRDA 2007 forward. This 
was an enormous effort, as the legislation was long overdue 
and, as a result, there was much to be considered. NAFSMA 
greatly appreciates all of the efforts and contributions made 
by Members and staff to enact this legislation.
    We also support many of the policy changes enacted in the 
2007 legislation and look forward to their implementation as 
Corps headquarters moves forward on guidance and development on 
these new initiatives.
    Recognizing that a good number of very positive steps were 
also taken to improve the non-Federal sponsor/Federal 
relationship in WRDA 2007 and to address critical levee safety 
issues, NAFSMA recommends a number of issues be addressed as 
part of WRDA 2008.
    In the interests of brevity, I will refer the Committee to 
my written testimony, submitted earlier, for a comprehensive 
list of our recommendations, but I would like to take just a 
few moments to highlight a couple of our issues.
    First, we support the enactment of WRDA 2008. It is 
critical that biennial reauthorization of the Water Resources 
Development Act occur. Not only does this necessary legislation 
provide an opportunity to review and shape the policies, 
programs, and projects of the Army Corps of Engineers, it is 
needed to strengthen the partnerships necessary to achieve the 
flood damage reduction goals of this Nation.
    Local and regional agencies depend on WRDA's 
reauthorization. In many cases, needed flood damage reduction 
projects face significant cost increases while waiting for 
authorization. These added costs hit both Federal and non-
Federal partners alike.
    New construction of flood damage reduction projects needs 
to be included in WRDA. Many existing and potential non-Federal 
sponsors and their congressional delegations held critical 
projects back from consideration in WRDA 2007 at the request of 
this Committee. The projects now need to be considered.
    The establishment of the Levee Safety Committee: Although 
authorizing language was enacted in 2007 WRDA to establish a 
national Levee Safety Committee with the charge of assisting in 
the development of a national levee safety program, the 
Committee has yet to be established. NAFSMA strongly urges this 
body to enact the needed language through WRDA or another 
legislative vehicle so this critical initiative can move 
forward.
    During this interim period, though, NAFSMA urges the Corps 
to move forward with the selection of the Levee Safety 
Committee members and to begin dialogue with Congress and 
stakeholders to shape the goals and outline a work plan for the 
Committee. WRDA should authorize the Corps to accept local 
funds to carry out levee certification work.
    NAFSMA understands the importance of the Thomas amendment, 
but is very concerned that in the area of levee certification 
there needs to be a mechanism for local sponsors to provide 
funds for the Corps to carry out certification activities. 
NAFSMA offers to work with the Committee to develop a workable 
approach to this issue.
    Cost sharing for strengthening and retrofits of federally 
partnered projects should be addressed. NAFSMA recommends that 
since most of these projects were cost shared with a 65/35 
local contribution, all work and costs, including mitigation 
that is needed to retrofit and strengthen levees, should be 
cost shared using this same formula. The Corps of Engineers 
should be encouraged to coordinate with other Federal entities 
and State and local agencies to streamline permits needed for 
operation and maintenance activities.
    NAFSMA strongly supports language to place the Corps in a 
lead facilitation role in the environmental permitting process 
for federally partnered flood damage reduction ecosystem 
restoration projects.
    The need for recognition of local expertise and 
responsibility in flood damage reduction: NAFSMA urges that the 
Corps be authorized to research and develop a program that 
recognizes qualified local and regional expertise and 
capability to accelerate the Corps' process for areas facing 
significant aging infrastructure and public safety risks.
    Finally, NAFSMA urges the inclusion of the Corps in the 
Federal climate change research effort.
    I thank you for the opportunity to address this Committee, 
and would be happy to answer any questions you may have.
    Mrs. Napolitano. Thank you, sir.
    Mr. Boozman?
    Mr. Boozman. Thank you, Madam Chair. Our next witness is 
Mr. Richard Brown, President of the National Federation of 
Federal Employees, International Association of Machinists.
    Thank you for being here.
    Mr. Brown. Thank you, Madam Chair, distinguished Members, I 
am here on behalf of a coalition of unions, including IBEW, 
IFPTE, Laborers International, and AFGE, representing over 2.5 
million workers, including Federal lock and dam employees. We 
have been working together to address the wasteful, unnecessary 
reorganization of the lock and dam function of the Army Corps 
of Engineers.
    A little background first: In 2005, the Corps began 
planning what would have been one of the largest, most 
expensive A-76 privatization studies ever conducted. Under 
review would have been approximately 2,000 full-time positions 
located over 230 locks and dams across the country. The study 
would have conservatively cost tens of millions of dollars to 
conduct. It would not haveensured any promise of savings.
    At stake in this study would have been a crucial piece of 
our national infrastructure. Our economy is dependent on being 
able to utilize our 12,000 miles of commercially navigable 
channels across the United States. And the proper functioning 
of the Federal locks and dams are a key component of its 
capability--excuse me, of our homeland security and defense 
operations. An accident at a lock along one of our river 
systems could jeopardize our economy and/or hamper our rapid 
response capability to our military.
    Regarding this potential A-76 study, our position is that 
the lock and dam function is too important for our national 
infrastructure to risk moving this function to government 
contractors. We also maintain the work lock and dam employees 
perform should be classified as inherently governmental and, 
therefore, improper for privatization review. Thankfully, 
Congress agreed that a privatization study was a bad idea and 
has defunded the lock and dam A-76 study in the appropriations 
process for fiscal years 2006 through 2008.
    In 2006, the Corps of Engineers announced they were longer 
actively pursuing an A-76 study of the lock and dam workers. 
While we considered this a good thing for the agency and our 
Nation, our satisfaction was short lived. The Corps of 
Engineers shortly thereafter announced they would be conducting 
a High Performance Organization, or HPO, reorganization study 
instead of an A-76. At the current moment, the Corps of 
Engineers is in the process of developing an HPO plan despite 
being stripped of all funding to implement it.
    Before I could begin to discuss the merits of the lock and 
dam HPO itself, I feel compelled to ask whether it makes sense 
to spend millions of dollars to develop a plan the agency is 
prohibited from implementing today or possibly in the years to 
come. To us, it seems like a waste of taxpayers' dollars. This 
money is being spent on consulting fees in Washington, D.C., 
when it would be better spent on going to the districts to 
address the $1 billion-plus operations and maintenance backlog.
    The HPO is a specific kind of reorganization, and the 
agencies are increasingly conducting alternatives to the 
standard A-76 studies. They are being used to end run around 
the intentions of Congress and carry out nonstrategic 
privatization agenda of the OMB at a great cost to the American 
taxpayer. The most wasteful example of this lock and dam HPO 
currently is being planned at the Corps of Engineers.
    The first thing you should know about the HPO as it is 
currently being planned is, there is no particular guidance for 
the agencies to follow in devising their HPO reorganization 
plans. As much as unions sometimes object to the A-76 studies, 
at least they have a process in place that Congress is informed 
about and the agency employees can count on. For HPOs, no such 
process exists. In fact, we have been told by the Corps of 
Engineers that their guidance for an HPO fits on a single sheet 
of paper.
    This agency is conducting a multimillion dollar 
reorganization of our critical waterways infrastructure, and 
yet neither we nor Congress knows anything about the process 
they are using.
    The second most important thing to know about the HPO is 
that they are not being used in a strategic sense as they 
should be. Rather, agencies are arbitrarily conducting HPO 
studies on functions that have enough FTEs to meet quotas 
placed on them by OMB. Although Congress has repeatedly and 
emphatically opposed OMB's imposing numerical quotas on 
agencies, it is clear that OMB pressure is the catalyst for the 
rise in popularity.
    Madam, I notice my time is short to expire, but I would 
just like to conclude that while permanent authorizing language 
ensuring reshaping of the locks and dams functions would be the 
best solution, in our opinion, our coalition would also be 
supportive of more incremental reform at a bare minimum; and we 
would like to see language in the WRDA that would require the 
Corps of Engineers to disclose how much money they are spending 
on HPOs.
    And, in addition, we believe Congress should authorize each 
HPO before it is implemented. This would give Congress an 
opportunity to examine the HPO before it would go into effect.
    And, finally, in lieu of permanent authorizing language 
previously suggested, we would like to see language making lock 
and dam workers inherently governmental.
    I thank you for the opportunity to speak before you today.
    Mrs. Napolitano. Thank you for your testimony, Mr. Brown.
    And thank you for being here, to all the panel. And I would 
like to begin the questioning by having Mr. Boozman start.
    Mr. Boozman. Thank you, Madam Chair.
    Mr. Weakley, I think you heard a lot of support for your 
testimony today and a lot of concern about the way that the 
fund is being handled. Your testimony describes a substantial 
backlog of maintenance dredging.
    Can you give the Subcommittee some sense of proportion as 
to how far behind the Corps is on maintenance dredging due to 
inadequate funding?
    Mr. Weakley. Yes, sir. You could literally double the 
Corps' operation and maintenance budget for several years, and 
that is what it would take to catch up.
    If I could put that into perspective on how that compares 
with the trust fund on the Great Lakes perspective, $231 
million behind, 6 percent. So from the Great Lakes perspective, 
we are asking for 6 cents to restore the Great Lakes to its 
authorized depths. We are not talking about improving, just 
maintaining.
    Mr. Boozman. Very good.
    Mr. Williams, again I want to congratulate The Nature 
Conservancy in my State in the sense that, you know, you said 
that you used science-based facts; and I think that is true. 
And I think along with that, as importantly, the best I can 
tell, a lot of common sense is thrown in there. You know, you 
get the information and then you have to use the common sense 
to use it.
    One of the things that the Subcommittee has been dealing 
with is the fact that because of a lot of different reasons, 
the expanding population--in fact there was an article today 
that by the end of the century we are talking about a billion 
people or something--something just wild; but I see that as 
something that is really going to put a lot of pressure on our 
natural resources.
    Can you describe a little bit how you all are dealing in 
that situation as far as--you know, how you are working with 
the States and different entities.
    Mr. Nat Williams. Yes, Congressman. Very briefly, I would 
reinforce that our approach is the same approach we talked 
about in our testimony here, to take a look at landscapes in a 
holistic manner, to recognize that the ecological connections 
are not necessarily--are not going to be geopolitical, they are 
going to be ecological. And you have to look at the landscape 
in all of its entirety so that the actions that you can take to 
preserve certain parts of it have an effect in other parts of 
it.
    And that context just keeps growing and growing. As we 
learn more and more from conservation biology, that context 
just is growing and growing.
    So I think the way to deal with the growing population 
question is also to put it in that larger context and try not 
to deal with it piecemeal. And those are the same 
recommendations we are making in regards to WRDA 2008, as far 
as Corps authorities were concerned as well.
    Mr. Boozman. I don't disagree at all. Again, I think that 
is something I hope you as an entity--you know, that really is 
going to be a significant factor as we move on.
    It is already becoming that now. I think that most people 
agree that perhaps that is going to be our next oil crisis in 
the not-too-distant future.
    Mr. Berginnis, do States need financial incentives from the 
Federal Government to undertake levee safety programs? Some 
would say that that means that we are basically giving 
financial incentives to the States to take care of, you know, 
their populations, their citizens. Why do we need to provide 
Federal incentives for States to do the right thing?
    Mr. Berginnis. Well, I think that you can look at a dam 
safety program as perhaps an example. As was stated many times 
today, our national waters are truly natural resources, and 
ASFPM has always had the perspective that flood loss reduction 
efforts are really a Federal, State, and local partnership. 
Certainly, there are costs at all levels of government if we 
fail to act and do those things.
    So, in line with that principle, incentives to help States 
develop levee safety programs would not only leverage State 
dollars but would also leverage State resources to assist local 
communities as well as--you know, even States have fairly large 
inventories of their own levees in doing that. Again, it is 
based on the partnership principle of the Federal, State and 
local where we would come up with that recommendation.
    Mr. Boozman. Very good.
    One last thing, Mr. Williams. What types of land use 
planning is required by the Corps of Engineers prior to the 
construction of Federal flood damage reduction projects? Are 
the requirements adequate? Are these requirements being 
enforced?
    Mr. Warren Williams. You saved the hard question for me, 
did you?
    There are no direct land use requirements that I am aware 
of, other than the Corps' cost-benefit ratio for any Federal 
project. It has to show a positive number. In that context, the 
land use is considered, both the existing and the future.
    Mr. Boozman. Okay.
    Mr. Warren Williams. Does that answer your question, sir?
    Mr. Boozman. Yes.
    Thank you, Madam Chair.
    Mrs. Napolitano. Thank you.
    We will be having votes. I think they will be calling soon, 
so I will make mine pretty short.
    Mr. Berginnis, you made a suggestion that the Committee 
should encourage the use of nonstructural approaches for 
floodplain management. Could you provide examples to the 
Subcommittee of such success stories?
    Mr. Berginnis. Certainly.
    In my home State of Ohio, as a matter of fact, when I was a 
local official, I had a small community experience of a 
significant flood event that damaged or destroyed more than 70 
percent of the buildings in that village. A nonstructural 
approach to flood management there was that we implemented a 
program of acquiring and demolishing homes, paying owners the 
market value of those properties, elevating some of those homes 
in place for folks who wanted to stay connected with the 
community, and retrofitting--or flood proofing--some of those 
homes and buildings to make them watertight or flood-resistant 
where the flood waters were not so deep.
    So those would be three different techniques of 
nonstructural floodplain management measures.
    Mrs. Napolitano. Thank you.
    Mr. Williams, you discussed the need to prioritize Corps 
cap projects. Does the Corps have any sort of ecological 
criteria for the project prioritization? How do you think the 
Corps should prioritize those projects if not using a benefit-
cost test?
    Mr. Nat Williams. I am not aware that they have a system 
that currently prioritizes them ecologically. I can provide the 
Committee with some recommendations about how we would do such 
a thing, but I am not aware that they have that system now.
    Mrs. Napolitano. I would appreciate any input that you 
would have, sir.
    Mr. Nat Williams. Thank you.
    Mrs. Napolitano. Again, for Mr. Berginnis, in your 
testimony, you suggested that Congress should address what you 
call a perverse incentive that allows communities to develop 
floodplains but to externalize their cost to the Federal 
taxpayer. Can you suggest how this Committee would address this 
concern as it develops the water bill?
    Mr. Berginnis. Well, I think it relates back to the concept 
of, really, a sliding cost share in the sense that where you 
have communities that are doing--and I believe Ms. Matsui 
mentioned Sacramento and some of the proactive things that they 
are doing. In a sense, Sacramento could be seen as a community 
that is really leveraging the Federal resource because they are 
taking actions to make them safer down the road in doing that.
    You contrast that with, perhaps, a community that is 
absolutely unwilling to do anything for themselves from the 
long-term perspective and requesting Federal assistance in that 
way. Perhaps they get a project and they continue to develop 
behind that with no standards or anything else. So, in a sense, 
what is happening is that the project may be inducing some 
unsafe development. We are not necessarily saying that is good 
or bad, but a community should look at it comprehensively and 
should have land use codes and those kinds of measures in 
addition to the Federal Corps resources.
    Mrs. Napolitano. What about those communities that would 
find it hard to--where they struggle even under the cost share?
    Mr. Berginnis. Yes, absolutely.
    You know, again, I will go back to my local experience in 
working in a--the county I worked in was an Appalachian Ohio 
county. It was a small village of less than 1,000 people and no 
resources really locally that they could use. Yet there are 
certain things they could do--land use control measures, those 
kinds of things--to actually help their community from a long-
term perspective. So, if that community were to have gotten 
Corps assistance and, let us say, were to do those things, in 
addition to the protection provided by that Corps structural 
project, they are also doing things that from a long-term 
perspective are going to make their community more sustainable.
    Mrs. Napolitano. But would you not think then that maybe 
those communities that are allowing development in areas where 
there might be flood should then be advised that they will not 
be covered not only by flood insurance but will not be able to 
apply for it to the extent that everybody else could?
    I am talking specifically Sacramento, the Bay Delta, 
because there are areas where you have developments at the 
floodplain level, where you look at the levy and there is a 
ship going by up there. Well, if those levees ever give, the 
whole area is going to go. Those elected officials are going to 
be long gone, and the taxpayers--you, me and everybody else--
are going to have to end up paying for that.
    How do we address that to be able to then say to those 
individuals you need to understand what you are getting into 
and why it is a necessity for you not to allow that development 
to occur?
    Mr. Berginnis. Well, I think there are a couple ways that 
could be addressed.
    One way that the Association has advocated in the past, 
actually, in areas protected by levees, no matter how high 
those levees are, is that there be something like a mandatory 
purchase of flood insurance even if it were at a lower cost, 
based on the reduced risk, actually, even though there is a 
catastrophic risk.
    Mrs. Napolitano. Should this be the Feds telling the State 
level so then the county can do it and the cities will enforce 
it?
    Mr. Berginnis. Correct. We have suggested before that that 
would be, actually, part of the National Flood Insurance 
Program as a reform, which is that you would have mandatory 
purchase even in those areas behind levees. Because what we 
have found and what I have found day-to-day is that, at least 
by having something like mandatory flood insurance, it raises 
the consciousness of that risk in those individual property 
owners' minds who may be coming in from anywhere.
    Mrs. Napolitano. Well, thank you.
    One last question very quickly. This is to Mr. Little. 
Where are you? There you are.
    You talk about the costlier, the longer term for being able 
to get some of these projects done. What are the reasons 
besides wages and material costs that you feel that this is 
happening or that it has happened?
    Mr. Little. That is a very good question, Madam Chair. The 
users board has asked and the Waterways Council has asked that 
same question.
    As you see in our prepared statement, we looked at earlier 
projects that were delivered, basically, on an average of 6 
years past their scheduled completion and at about 30 percent 
over cost.
    Mrs. Napolitano. Any findings?
    Mr. Little. We compared that group to the current group, 
which is about 17 years past scheduled delivery and at about 
100 percent over cost. We asked that question of the Corps. The 
Corps is doing a comparative analysis as to where those 
discrepancies are, why this will take longer and is more costly 
to deliver this group versus the other group.
    This is a very good question. We are still waiting for that 
analysis from the Corps of Engineers. Maybe as a policy we need 
to get someone else to look at that question. Perhaps GAO or 
someone outside the government--to go into this program and to 
identify the inefficiencies internal to the Corps, external to 
the Corps, and where do we need to fix this model so that we 
can get the most bang for our buck as taxpayers.
    Mrs. Napolitano. Anything else?
    Mr. Boozman. No. Thank you, Madam Chair.
    Mrs. Napolitano. Well, we thank the panel. With that, we 
will dismiss the panel. We thank you very much for being in 
this hearing and for sharing your testimony with this 
Committee.
    We stand adjourned.
    [Whereupon, at 4:10 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    


</pre></body></html>
